<html>
<title> - DISCUSSING TRIBAL PRIORITIES IN THE FISCAL YEAR 2010 BUDGET</title>
<body><pre>[Senate Hearing 111-47]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-47
 
      DISCUSSING TRIBAL PRIORITIES IN THE FISCAL YEAR 2010 BUDGET

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
48-753                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
_____, _____
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2009...................................     1
Statement of Senator Barrasso....................................     5
Statement of Senator Dorgan......................................     1
Statement of Senator Tester......................................    68

                               Witnesses

Burger, Jessica, Executive Committee Member, National Indian 
  Health Board; Health Director, Little River Band of Ottawa 
  Indians........................................................    17
    Prepared statement with attachment...........................    19
Cook, Robert B., President, National Indian Education Association    37
    Prepared statement...........................................    39
Johnson-Pata, Jackie, Executive Director, National Congress of 
  American Indians (NCAI)........................................     7
    Prepared statement...........................................    10
Parish, Cheryl, Executive Director, Bay Mills Housing Authority; 
  Vice-Chairperson, National American Indian Housing Council.....    50
    Prepared statement with attachments..........................    53

                                Appendix

Navajo Nation, prepared statement................................    85
United Tribes Technical College, prepared statement..............    90


      DISCUSSING TRIBAL PRIORITIES IN THE FISCAL YEAR 2010 BUDGET

                              ----------                              


                        THURSDAY, MARCH 12, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I am going to call the hearing to order this 
morning. This is a hearing of the Senate Indian Affairs 
Committee, and I thank all of you for being here.
    Today, the Committee is going to examine the tribal 
priorities in the President's 2010 budget. The purpose of this 
hearing is to receive information about program priorities as 
we develop our views and estimates letter to the Senate Budget 
Committee.
    The Senate Budget Committee will, in turn, consider our 
recommendations as they prepare their recommendations to the 
full Senate for the 2010 budget resolution.
    Now, it is true that we are still awaiting more details 
with respect to tribal programs in the President's budget, but 
I was encouraged to see that his budget has some proposed 
general increases for programs to address Indian health care, 
Indian education, and public safety issues.
    In addition, for the first time in eight budget cycles, the 
Administration has recommended funding in their budget for the 
United Tribes Technical College, which is one of the premier 
tribal colleges in our Country. It is a college that serves 
many states and many tribes. It is true that it is in North 
Dakota, so I of course have special interest here, but it is 
also true that it is one of the premier colleges of its type in 
the Country.
    I am also pleased to see the Administration recognizes the 
success of so many of the tribal college institutions. Overall, 
the funding for tribal programs represents, I think, an attempt 
by the United States to meet treaty and trust obligations that 
are owed to tribal governments.
    North Dakota tribes refer to the 1896 Treaty of Fort 
Laramie as the governing document for their relationship with 
the United States. In that treaty, the United States made 
specific promises to provide for public safety, education and 
health care, and the general welfare of reservation 
communities. That was a promise, a treaty signed by the 
government of this Country.
    Unfortunately, this Country has not met its obligations. In 
the past eight budget cycles, we have seen proposed cuts to 
tribal programs which this Committee has strongly opposed. 
Because of past budget cuts, the Committee has been forced to 
work hard just for the status quo in funding tribal programs. I 
have some charts that I will show.
    The first chart shows funding over the past decade for 
Indian health care construction, dental and mental health, and 
Contract Health Services. And you will see that it is pretty 
much flat lined, with the exception of an increase in Contract 
Health in the last fiscal year.
    These are slight increases, but not adjusted for inflation 
or increased population. In fact, the IHS budget has never 
accounted for the high levels of medical inflation. The end 
result is that tribes continue to see multi-billion dollar 
unmet needs for health care construction and services.
    For a number of years, our Committee has heard from tribal 
leaders who run out of contract health care funding in January, 
perhaps April, some June. Some tribal leaders have said to us 
that on their reservation, it is said do not get sick after 
June because there is no contract health care funding 
available.
    The same situation is true with respect to Indian 
education. We have a chart that shows what is happening for 
funding for Indian school construction, and flat figures for 
Indian school services. As you can see from that chart, the 
funding levels for Indian children have not met the promises 
that our country has made.
    A 2007 Inspector General's flash report found many 
deficiencies at Indian schools, from leaking roofs to buckling 
walls to outdated electrical systems. These schools, frankly, 
pose danger to both students and to teachers. And Indian 
students simply cannot learn, in my judgment, in an environment 
where they have to fear for their safety and have concern for 
their well being.
    I have visited many Indian schools. We know that some of 
the greatest disrepair in American schools are those schools 
that are attended by young Indian children.
    Finally, chart three that we will put up, shows the 
fluctuations in funding for Indian jails and tribal police 
officers. These are the law and order or law enforcement 
issues. And you will see for tribal police officers, tribal 
detention, jail and prison construction, a precipitous drop in 
the amount of funding that has existed.
    Indian jails have long been proclaimed a national disgrace. 
I have seen first-hand the circumstances in some of these 
detention facilities. I have seen young teenage children lying 
on a cement floor in an adult detention center, breaking all 
the rules one would expect to exist. This Country has made 
promises, again, that it has not kept.
    On the Standing Rock Indian Reservation, which is just one, 
but one in which we have had some testimony, an Indian 
reservation that is very, very large, expansive land, in which 
there are 2.3 million acres. There are nine police officers to 
patrol 2.3 million acres. And we have had police officers admit 
that they are forced to triage even rape cases.
    So the situation is difficult. It is dangerous. On the 
reservation I just described, the rate of violent crime was 
five times the rate of the national average, and yet they are 
so short of the funds that are necessary to provide for that 
law enforcement.
    In the just-passed American Recovery and Reinvestment Act 
of 2009, Economic Recovery Act, at least some of these 
deficiencies were addressed. Congress provided about $925 
million in construction funding for these three areas I have 
just described.
    Overall, the Recovery Act provided $2.5 billion for Indian 
Country jobs and construction. We know this is a good start, 
but we also have a long ways to go to meet all of the 
unaddressed needs. I am working with Vice Chairman Barrasso to 
develop a proposal that we will soon send to the Budget 
Committee that offers some recommendations on funding. So, we 
wanted to have a hearing and receive your analysis of the 
President's budget proposal in order that we might include that 
in our evaluation of what we think needs to be done to keep the 
promises that our Country has made, both in treaty and also 
trust obligations to American Indians.
    [The charts referred to follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Barrasso, welcome. We would like to hear from you.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I want 
to thank you for holding this budget hearing today.
    I would like to also welcome our witnesses, and thank them 
for being here to share their time and information with us this 
morning.
    We are now considering the fiscal year 2010 budget, and we 
will be hearing the tribal perspective on what the budget 
should include. In the past month, as you just mentioned, Mr. 
Chairman, we passed unprecedented spending bills, one intended 
to spur the economy, another to provide funding for Federal 
programs throughout the balance of Fiscal Year 2009.
    With the ink barely dry on these two bills, we are now 
turning our attention to spending for Fiscal Year 2010. Several 
Committee hearings have demonstrated the tremendous levels of 
unmet need in many Indian programs, especially health, law 
enforcement, and we have been documenting those in several of 
our studies and reports.
    The 2006 Bureau of Indian Affairs gap analysis study to 
project additional staff needed for Indian Country law 
enforcement and detention personnel indicated a total of 4,490 
sworn officers are still needed in Indian Country to provide 
the minimum level of coverage enjoyed by most communities 
across this country.
    To address this shortage, the gap analysis estimated that 
it would take over three years and cost an additional $681 
million to hire, to train, and to equip the needed personnel. 
That shortage is evident on the Wind River Reservation, where 
as I have mentioned in prior hearings, there are currently only 
two patrol officers for the entire 2.2 million-acre reservation 
per shift during a 24-hour/7 days-a-week period.
    The Eastern Shoshone and the Northern Arapaho Tribes also 
have a great need for health care facilities, for irrigation 
improvements, other public safety improvements, and plus 
another key, economic development. Their needs in these regards 
are shared by other Indian communities across the Country, so I 
look forward to working with you, Mr. Chairman, to do our part 
to address these needs.
    I am sure you will agree that despite the level and urgency 
of need, we must never lose sight of the fact that this is 
taxpayer money that we are spending. Now that Congress has 
committed the Federal Government to spending so much of 
American taxpayers' hard-earned money, and is now considering a 
budget for next fiscal year, I think it is more important than 
ever that the resources be used with great prudence, 
efficiency, as well as accountability.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso, thank you very much.
    Let me mention to you that we are going to do a hearing 
April 2, to those who are here, for the purpose of hearing 
views on the Carcieri Supreme Court decision, which has an 
impact, or potentially has a very significant impact on every 
tribal government in America. And so on April 2, I just want 
folks to know that hearing will be held, and we will be doing a 
fair amount of work between now and that time with 
organizations to understand the potential consequences of it 
and what might need to be done as a result of it.
    I also wanted to indicate that I will have to leave before 
this hearing is complete. Senator Tester is going to be here to 
chair as well. We have an Energy Committee hearing on a 
transmission issue that I have been working on that I have to 
attend.
    But this hearing is very important for the purpose of 
getting on the record Indian organizations' assessment of the 
President's, the President's budget submission to the Congress. 
And we have traditionally done this. This hearing is a part of 
that tradition that helps us as Senator Barrasso and I put 
together a letter of recommendation from our Committee to the 
Budget Committee, as I indicated.
    We have as witnesses today Jackie Johnson-Pata. Ms. 
Johnson, have you changed your name?
    Ms. Johnson-Pata. Yes, I got married last summer.
    The Chairman. Congratulations to you.
    So Jackie Johnson has another name today, Jackie Johnson-
Pata. We welcome her, Executive Director of the National 
Congress of American Indians; Ms. Jessica Burger, the Health 
Director of the Bemidji Area National Indian Health Board in 
Michigan; and Mr. Robert Cook, the President of the National 
Indian Education Association here in Washington, D.C.; and Ms. 
Cheryl Parish, who is the Vice Chair of the National American 
Indian Housing Council.
    All of you work in the real key areas that have great need 
for funding and attention by the Congress. I know that you do a 
lot of work all year long to try to bring these issues to the 
attention of the Congress. I appreciate that work.
    So we will hear from the four of you. Again, at some point 
during this hearing when I have to excuse myself to go to the 
Energy Committee, please excuse me for my absence, but Senator 
Barrasso will be here, as well as Senator Tester.
    Ms. Johnson-Pata, welcome. You may proceed.

          STATEMENT OF JACKIE JOHNSON-PATA, EXECUTIVE 
     DIRECTOR, NATIONAL CONGRESS OF AMERICAN INDIANS (NCAI)

    Ms. Johnson-Pata. Thank you very much.
    Thank you, Chairman and Vice Chairman, for inviting NCAI to 
participate in this hearing today.
    Before I get started, I want to just let you know that we 
have shared with members of Congress, all members of Congress, 
NCAI's budget priority document that was put together with the 
help of all these fine organizations I am sitting here at the 
table with today, and other organizations like Intertribal 
Agriculture, et cetera.
    I think this is a true reflection of what Indian Country's 
requests are, and I hope that you take the time to take a look 
at it. It also has the gentle reminder that you so, that you 
talked about, Mr. Chairman, about the treaties and the 
responsibilities and the obligations that you speak so 
honorably about, and that is the foundation of this book here.
    We look forward to sharing and working with your staff on 
the 2010 budget priorities. As you reflected, President Obama 
has released his blueprint and framework for a budget, but we 
don't have the details there yet. We, like you, were also 
pleased to see the increases that were in education and public 
safety, and health care. And we are looking forward to how 
those budgets get built out.
    We also know that this is a trying time for Congress and 
the Administration, given the current economic situation and 
the deficit. We know that you want to make sure that your 
investment in any of America's programs or services are a good 
investment for America.
    So we stand with you to work to work to ensure that Indian 
Country is a good investment, and I think all of our sister 
organizations sitting here have the same commitment to making 
sure that happens.
    In fact, in the economic recovery plans, NCAI quickly 
responded to put forward a technical assistance component to be 
able to help tribes, one, access the dollars, as well as report 
back to ensure that we are also keeping track of the value of 
those dollars to Indian Country. And we look forward to doing 
the same kind of thing with the 2010 budget as this Country 
deals with its economic challenges.
    I would like to remind you that, as I looked at your charts 
this morning and reflected on your charts, that we see, 
basically what we are seeing is a decrease or a flat line. In 
fact, if you look at Indian Country's overall budgets since 
1998, you will see that Indian Country has received a 
substantial decrease that we have never recovered from.
    In fact, all the budgets since about 1998, if you took off 
the cost of living or inflation factors, would be basically 
flat line for Indian Country. And so we are not keeping up with 
the cost of real business in Indian Country.
    And certainly, that hurts us in the way that Indian Country 
since about that same time has taken on the challenge of self-
determination and self-governance. And so we are looking 
forward to a time to working with you and with the 
Administration, that we can actually get programs that support 
self-determination and self-governance, and deal with the real 
costs of those factors such as contract support costs and other 
relevant factors.
    We also know that you know, and I don't need to remind 
those here, sitting here in the room, that Indian Country lags 
far behind the Country in infrastructure, health care, public 
safety, the list goes on and on.
    So that all of these dollars are real investments into 
where tribes want to go. Tribes have taken on the resurgence of 
self-determination in the last couple of decades. They have 
done measurable improvements in their ability to perform and to 
be the primary responsible party for the delivery of services 
within their communities. They are rebuilding our nations 
around honoring their ancestors and cultures, and I am sure you 
will hear that from several of the panelists today about the 
value of that.
    And as you know, in the Harvard report, that before the 
economic recession, Indian Country was actually, was growing at 
a faster economic rate than the rest of the Country as a whole. 
And so we have made great strides in our ability to take these 
resources and maximize and leverage those opportunities, and we 
want to continue to do that.
    If we look at the President's budget priorities and the 
President overall, he says education, health care, 
infrastructure and clean energy are his priorities. Well, 
certainly Indian Country can align with those priorities 
because they are all issues of concern that we care about.
    And if we look at Indian Country's priorities as the tribal 
leaders from the TBAC, the Tribal Budget Advisory Committee, 
has stated in the last several years, their budget priorities 
are public safety, health care, education, and natural 
resources. Once again, those clearly align with the President's 
budget priorities, but are budget priorities that the tribal 
leaders themselves have decided. But if we had to focus in a 
couple areas, we want to focus in those areas that we think 
will have meaningful difference and will actually help a 
holistic improvement for our communities.
    So we look forward to working with you, the Committee, to 
ensure that Indian Country is a good Federal investment, to 
working with you to work with OMB to make sure that our 
measures for success, while we are measuring success, are 
relevant for Indian Country so we can prove that we are a good 
Federal investment, and working with you on refining what the 
2010 fiscal year budget looks like.
    Thank you very much.
    [The prepared statement of Ms. Johnson-Pata follows:]

Prepared Statement of Jackie Johnson-Pata, Executive Director, National 
                  Congress of American Indians (NCAI)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much.
    Ms. Burger, thank you for your work in the area of health 
care, and we welcome you here. You may proceed.

   STATEMENT OF JESSICA BURGER, EXECUTIVE COMMITTEE MEMBER, 
             NATIONAL INDIAN HEALTH BOARD; HEALTH 
         DIRECTOR, LITTLE RIVER BAND OF OTTAWA INDIANS

    Ms. Burger. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Vice Chairman and members of the 
Committee, I am Jessica Burger. I am an executive committee 
member of the National Indian Health Board, and I am also the 
Health Director for my nation, the Little River Band of Ottawa 
Indians located in Manistee, Michigan.
    I am pleased to be here today to give you the National 
Indian Health Board's views on the priorities of the Fiscal 
Year 2010 budget for the Indian Health Service. We were 
pleased, as you were, to learn that the Obama Administration is 
proposing an increase to the budget of $4 billion. We don't 
have any details, but we are hopeful that the Administration's 
budget will reflect the recommendations made by the Tribal 
Leaders Committee in March of 2008, and National Indian Health 
Board supports the recommendations made by that committee.
    Overall, the work group recommended increases totaling $908 
million above the expected 2009 fiscal year funding levels. 
They focused on two types of need. First, our current service 
increases, and those are the increments needed to support the 
Indian Health Service system at its current level of service. 
They include pay costs, medical inflation, contract support 
costs, funding for population growth, facilities construction 
and staffing in urban program funding, which as you know was 
eliminated in three previous budgets.
    Facilities construction and urban program funding are very 
important to Indian Country. And we also advocate for the 
restoration of the rescissions of Fiscal Year 2005 and 2006 
budgeted amounts. The work group recommended a $449.3 million 
increase overall for all of those items.
    Secondly, we talked about program service increases. Those 
are increases that provide the programs the ability to improve 
and expand services provided to Indian patients. The IHS has 
long been plagued by inadequate funding in all areas, and what 
that has done is made it impossible to supply our Indian people 
with the level of service that they need and that they deserve. 
The work group recommended a $458.7 million increase to the 
program in facilities accounts, and we support that 
recommendation.
    Relative to the budget, I would like to call your attention 
to two issues regarding budget management. First, it has been 
the OMB's practice for the past several years to apply the non-
medical inflation factor to the Indian Health Service budget. 
This woefully underestimates the amount needed to keep up with 
inflation. The medical inflation factor should be applied to 
the Indian Health Service budget, and it would more correctly 
reflect the amount it needs to supply necessary care to Indian 
people.
    Second, the Indian Health Service budget must be shielded 
from Administration rescissions and congressional across the 
board cuts. Our system provides direct care to patients. It is 
unfair to make the Indian Health Service programs vulnerable to 
budget cuts employed for the sole purpose of achieving 
arbitrary budget ceilings.
    Our system is funded at a 60 percent level of need at best. 
Unplanned cuts to programs puts funding patient care issues at 
severe risk. We would ask for language to protect the Indian 
Health Service budget from all rescissions and across the board 
cuts imposed by Administration and Congress.
    And lastly, I would like to highlight some recommendations 
for increases in four programs and explain why those 
recommendations are needed.
    First, Contract Health Services. The Committee is well 
aware of the Contract Health Services program and the critical 
role it plays in addressing the health care of Indian Country. 
CHS exists because the Indian Health Service system is not 
capable of supplying all the care needed by our population. It 
should be a way to purchase needed care, and especially 
specialty care that is not cost-effective to deliver at every 
location.
    In reality, the gross under-funding of CHS means that we 
cannot purchase the quality and types of care that we need. 
Many of our Indian patients are left untreated in painful 
conditions that plague the system, and over time those persons 
suffer from injuries of life and limb that are very costly to 
treat at the end result.
    Secondly, hospitals and clinics are the core of our 
system's medical programs. In addition, the Indian Health Care 
Improvement Fund provides separate funding that reduces 
disparities that exist unit to unit within the Indian Health 
Service system. Without an appropriate level of support in the 
hospitals and clinics accounts, the United States' trust 
responsibility for Indian health cannot be met and health 
directors like me are unable to fulfill our health care 
mission. We urge you to accept the recommendations of the 
committee to increase the hospital and clinics account by 
$107.4 million and to supply an additional $61.2 million to the 
Indian Health Care Improvement Fund.
    I would also like to talk about health care sanitation and 
facilities. We would like to call attention to the work group 
recommendations for all of the facility-related accounts, 
health care facilities construction, maintenance and 
improvement, sanitation facilities, and environmental health 
support.
    The Committee is well aware that many of our health care 
facilities are poor and in very inadequate condition to provide 
the necessary service to our people. We are very grateful for 
the generous funding for health care and sanitation facilities, 
construction and maintenance that was provided in the American 
Recovery and Reinvestment Act, but this is only a one-time 
boost.
    We need the Administration and Congress to commit to 
provide more appropriate levels of support for these facility 
accounts and to do so on a continuing, recurring basis.
    Mr. Chairman, I appreciate the opportunity to address the 
Committee today regarding these important matters, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Burger follows:]

   Prepared Statement of Jessica Burger, Executive Committee Member, 
  National Indian Health Board; Health Director, Little River Band of 
                             Ottawa Indians

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much for your testimony. I 
appreciate your work on health care issues.
    Next, we will hear from Mr. Robert Cook, the President of 
the National Indian Education Association. Likewise, thanks for 
all of your work dealing with Indian education issues. You may 
proceed.

    STATEMENT OF ROBERT B. COOK, PRESIDENT, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Mr. Cook. [Greeting in native tongue.]
    Chairman Dorgan, Vice Chairman Barrasso, Senator Johnson 
and Senator Tester and other members of the Senate Committee on 
Indian Affairs, thank you for this opportunity to submit 
testimony. My name is Robert Cook. I am an enrolled member of 
the Oglala Sioux Tribe, and I serve as President of the 
National Indian Education Association.
    Under new leadership with new opportunities, NIEA believes 
that now is the time to reverse budget cuts to native education 
programs. To my side is a chart that illustrates the severe 
disparity in funding for native education. NIEA is hopeful that 
schools educating native students will receive stronger support 
and funding for native language, culture, and curriculum; 
increase funding for Head Start programs; funding for Indian 
school construction and repairs; and speaking as a tribal 
college graduate, increased funding for tribal college 
operations and construction, as stated in President Obama's 
blueprint for strengthening tribal communities.
    The Native American programs at Department of Education are 
consistently funded at minimum levels, never the maximum. In 
consideration of the tight budget, NIEA requests a moderate 5 
percent increase for a total of $198 million for NCLB Title VII 
funding. Included in this request is full funding for education 
for Native Hawaiians and for Alaska Native education equity.
    The purpose of Title VII of NCLB is to meet the educational 
and culturally related academic needs of American Indian, 
Alaska Native, and Native Hawaiian students. Funds for these 
programs are the primary sources of funding that specifically 
address the cultural, social, linguistic needs of Indian 
students.
    At the Department of Education, there is a tremendous 
backlog of construction needs for public schools on Indian 
lands that receive Impact Aid funding. The Impact Aid Program 
directly provides resources to public schools on trust lands. 
Many public schools on reservations are crumbling, unsafe and 
should be replaced. The Impact Aid program did receive $100 
million in the Recovery Act. However, the school construction 
needs on Indian lands are great, and these schools could use 
additional assistance, given that they no tax base and receive 
minimum funding from the state. An increase of $62 million 
allocated for school construction for a total of $1.3 billion 
over the Fiscal Year 2009 level would allow for some progress 
to be made.
    While funding was provided for BIE and for Impact Aid 
school construction, NIEA was disappointed that funding for 
public school construction was eliminated in the Recovery Act. 
We hope that appropriations for Fiscal Year 2010 will include 
funding for this pressing need.
    As someone who has taught in both the BIE and public 
schools, I have experienced first-hand the effects of BIE's 
budget being inadequate to meet the needs of Indian students. 
NIEA requests $661 million for BIE schools, which includes new 
program funding and a modest 5 percent increase over the amount 
for BIE schools in the Fiscal Year 2009 omnibus.
    This includes funding for elementary and secondary 
education programs, education management, and a $25 million 
allocation for student transportation, and a $5 million 
allocation to provide technical assistance to schools to 
develop their own standards and assessments.
    Schools currently have to use classroom dollars to 
transport their students to make up for the shortfall. During 
the current school year, BIE-funded school buses will travel 
nearly 15 million miles, often over gravel or dirt roads. As 
reported by the Little Wind School on the Pine Ridge 
Reservation, the school runs 13 bus routes each day, during 
which the buses travel an average of 1,600 miles per day during 
a school day, totaling 268,000 miles annually just for regular 
bus runs, and these don't include the activity runs.
    For BIE school construction and repair, as you can see by 
the chart, that BIE school construction has been cut in half 
over the past five years. NIEA requests a $135 million increase 
over the Fiscal Year 2009 level, for a total of $263 million.
    In May of 2007, the OIG at Interior issued a flash report 
that describes the conditions at BIE schools and required 
immediate action to protect the health and safety of students 
and faculty. In its conclusion, the IG states that: ``Failure 
to mitigate these conditions will likely cause injury or death 
to children and school employees.''
    The Recovery Act provides $450 million to be shared among 
the BIE school construction and repairs, detention facilities, 
and roads. However, this funding will provide little headway 
considering the lengthy list of schools waiting for new 
facilities or repairs.
    In South Dakota, there is a term that is used called the 
school to prison pipeline. Our schools are failing our children 
and we are seeing our children dropping out of school, getting 
into trouble, and being incarcerated. Investing in children 
would be an investment in the future.
    The NIEA requests at least $24 million for JOM programs at 
the BIA. JOM grants are the cornerstone for many Indian 
communities in meeting the unique and specialized education 
needs of native students. Many Indian children live in rural or 
remote areas with high rates of poverty and unemployment. JOM 
helps to level the field by providing Indian students with 
programs that help them stay in school and attain academic 
success.
    I have seen first-hand the benefits of JOM. My sons are 
excited about school because of programs that JOM enables them 
to participate in. For example, JOM helped purchase basketball 
shoes for the fourth grade boys basketball team that I coach. 
These shoes are the only shoes that these boys have. It is hard 
to be in school if you don't have shoes.
    At HHS, NIEA requests a $10 million increase to $57.5 
million, with an allocation of $13.5 million for the Esther 
Martinez Act for the administration of Native Americans to 
support native language immersion and restoration programs. 
President Obama expressed his support for native languages, 
both in his message to Indian Country and principles for 
stronger tribal communities.
    NIEA hopes that the 111th Congress will echo President 
Obama's support for native languages through funding for the 
Esther Martinez Act at a level that will make a significant 
impact for tribal communities.
    Once again, NIEA thanks the Committee for its tremendous 
efforts on behalf of native communities. With your permission, 
I would like to submit some documents for the record.
    The Chairman. Without objection.
    Mr. Cook. Thank you.
    [The prepared statement of Mr. Cook follows:]

   Prepared Statement of Robert B. Cook, President, National Indian 
                         Education Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. And Ms. Cheryl Parish. Ms. Parish, thank you 
for your work on housing issues. She is Vice Chairman of the 
National American Indian Housing Council.
    You may proceed.

        STATEMENT OF CHERYL PARISH, EXECUTIVE DIRECTOR, 
        BAY MILLS HOUSING AUTHORITY; VICE-CHAIRPERSON, 
            NATIONAL AMERICAN INDIAN HOUSING COUNCIL

    Ms. Parish. Thank you.
    Good morning, Chairman Dorgan, Senator Tester. I am honored 
to appear before you today and provide our views on the Fiscal 
Year 2010 funding priorities as they relate to Native American 
housing.
    My name is Cheryl Parish. I am the Executive Director of 
the Bay Mills Housing Authority. I am a member of the Bay Mills 
Tribe of Chippewa Indians in Michigan.
    Today, I am here as the Vice Chairwoman of the National 
American Indian Housing Council. The Housing Council is 
composed of 271 members representing 460 tribes, and it is the 
only national organization whose missions it is to represent 
the housing interests of American Indians, Alaska Natives, and 
Native Hawaiians.
    I would like to thank the Chairman for his leadership on 
tribal housing issues, which you have repeatedly recognized as 
a crisis in Indian Country.
    The year 2008 was a landmark year for Indian Country and 
Indian housing. The Native American Housing Assistance and 
Self-Determination Act was amended and reauthorized through 
2013. Thank you for your support in the reauthorization of 
NAHASDA last year.
    Just a few weeks ago, the American Recovery and 
Reinvestment Act of 2009 was signed into law. Native American 
housing programs were included in a very favorable way.
    Mr. Chairman, I would like to thank you and the entire 
Committee for your support. This means a great deal to us and 
will have a lasting impact on the communities which we serve. 
We are working closely with HUD to implement our programs as 
Congress and the President intended, to quickly create jobs for 
American workers.
    In my own community, we have immediate plans to use the 
recovery money to weatherize our homes in the upper peninsula 
of Michigan. Beefing up the program will improve energy 
efficiency and improve the health of our housing residents. We 
already have commitments from contractors and subcontractors to 
hire local tribal members from our reservation, which is 
currently experiencing an unemployment rate of around 30 
percent.
    We celebrate the hope brought to us by the small increases 
in the funding in the Fiscal Year 2009 omnibus appropriations 
bill, the additional economic stimulus money, and the newly 
reauthorized NAHASDA.
    However, we must not lose sight of the stark conditions 
that still exist in Indian reservations, Alaska Native 
communities, and on Native Hawaiian Home Lands. Housing 
conditions in native communities still lag far behind those of 
most of the Nation. A large percentage of existing homes are in 
great need of rehabilitation, repair and weatherization. 
Unemployment rates on Indian reservations are typically well 
over 50 percent, which is even before the current recessionary 
period.
    The conditions I just described impact our education, our 
health, and our spirituality, indeed the very integrity of our 
culture. Native people in America come from a proud tradition 
and we want that tradition to continue. This can be difficult 
when your see the deplorable housing conditions that exist 
within our communities.
    President John F. Kennedy noted almost 50 years ago that 
housing conditions on Indian reservations are a national shame. 
I must tell you the same housing conditions still exist today 
in far too many of our native communities. I am here to ask 
you, help us change those conditions.
    With this in mind, the NAIHC presents the following 
budgetary priorities that will help improve housing and living 
conditions in Indian Country. The Indian Housing Block Grants 
should be funded at $854 million. This is the single largest 
source of capital for housing development, housing-related 
infrastructure, home repair, and maintenance throughout Indian 
Country.
    I would like to bring to your attention the slow pace at 
which the Indian Housing Block Grant funding is provided. Often 
it takes several months after an appropriations bill is signed 
into law for HUD to make these funds available. In contrast, 
the American Recovery and Reinvestment Act of 2009 required HUD 
to obligate funds by formula within 30 days. If HUD can provide 
these funds within 30 days after passage of this legislation, 
the annual funding should be available in a similar fashion.
    Let me briefly address an issue where Indian Housing Block 
Grant funding has been set aside by HUD to satisfy litigation 
on tribal claims associated with formula current-assisted 
stock. In 2008, the HUD held back nearly $20 million for 
lawsuits that have yet to be resolved. This resulted in an 
across the board funding reduction to all of our recipients. 
These funds need to be returned to Indian Country and no 
further funding should be withheld by HUD.
    The funding for the NAIHC technical and training assistance 
program should be increased to $4.8 million. Tribal housing 
authorities rely on our training programs to effectively 
implement and improve their housing programs.
    The Indian Community Development Block Grant should be 
funded at $100 million. Since 2001, this program has built 160 
community buildings throughout the Indian Country. Funding has 
actually decreased 17 percent since Fiscal Year 2004. We need 
these vital funds restored to continue to build our viable 
communities.
    The Section 184 Program should continue to be funded at $9 
million. The Section 184 loan is to facilitate home ownership 
in Native American communities on their native lands and within 
approved Indian areas which have been historically under-served 
by conventional lenders.
    I am so pleased to note that since May of 2008, the 
Department of Hawaiian Home Lands is the newest member of the 
National American Indian Housing Council. The Native Hawaiian 
block grant funding should be increased to $20 million to 
address the unique and significant needs of low-income Native 
Hawaiians.
    The Bureau of Indian Affairs Housing Improvement Program 
funding should be increased to $50 million. We know that there 
is a significant congressional support for this much-needed 
program which serves the neediest of our communities, our 
elders, and our extremely low-income people.
    In conclusion, I would like to thank you for your 
invitation to share our Fiscal Year 2010 budgetary priorities 
for Native American housing needs. Your continued support of 
Native American communities is truly appreciated. The National 
American Indian Housing Council is eager to work with you and 
your professional staff to improve Indian housing programs and 
living conditions for America's indigenous people.
    I would be happy to answer any questions you have, and 
thank you.
    [The prepared statement of Ms. Parish follows:]

  Prepared Statement of Cheryl Parish, Executive Director, Bay Mills 
 Housing Authority; Vice-Chairperson, National American Indian Housing 
                                Council

Introduction
    On behalf of the National American Indian Housing Council (NAIHC), 
I am pleased to submit the following statement to Chairman Dorgan, Vice 
Chairman Barrasso, and distinguished members of the Senate Committee on 
Indian Affairs.
    I serve as the Executive Director of Bay Mills Housing Authority. I 
am a member of the Bay Mills Tribe of Chippewa Indians in Michigan. I 
am also the Vice-Chairperson of the National American Indian Housing 
Council (NAIHC).
    The National American Indian Housing Council was founded in 1974 to 
support and advocate for tribes and tribally designated housing 
entities (TDHEs). For nearly 35 years, the NAIHC has assisted tribes 
with their primary goal of providing housing and community development 
for American Indians, Alaska Natives and native Hawaiians. The NAIHC 
consists of 266 members representing 460 tribes. The NAIHC is the only 
national Indian organization whose sole mission is to represent Native 
American housing interests throughout the Nation.
    First of all, I would like to thank the Chairman, Vice Chairman and 
the Committee for holding this hearing on the tribal budget priorities 
as we move into the appropriations season. The lack of significant 
private investment, functioning housing markets and the dire economic 
conditions most Indian communities face mean federal investment in 
housing and community development in tribal communities is critical to 
thriving communities and economies.
    Next, I would like to thank the Chairman for his leadership on 
tribal housing issues, which time and time again, he has recognized as 
a crisis in Indian Country. The year 2008 was a landmark year for 
Indian Country and Indian Housing, in particular. The reauthorization 
of the Native American Housing Assistance and Self-Determination Act 
(NAHASDA) provides tribes and Native American communities with 
additional tools such as flexibility and greater self management of 
housing programs, which are necessary to develop culturally relevant, 
safe, decent and affordable housing for our people.
    But, as we celebrate the hope that NAHASDA presents us for 
improving the quality of life and living conditions for Native 
Americans, we must not lose sight of the stark conditions that still 
exist in Indian Reservations and Alaska Native communities, and on 
native Hawaiian Home Lands. Housing conditions in Native communities 
still lag far behind those of most of the nation. An estimated 200,000 
housing units are needed immediately just to meet current demand, and 
we estimate that there are approximately 90,000 native families that 
are either homeless or under-housed, living in overcrowded situations. 
A large percentage of existing homes are in great need of 
rehabilitation, repair and weatherization. Unemployment rates on Indian 
Reservations, even before the current recessionary period, were 
typically well over 50 percent.
    With these figures as a backdrop, the NAIHC presents the following 
budgetary priorities that will improve housing and living conditions in 
Indian Country.

Indian Housing Block Grant (IHBG)
    Fund the IHBG at $854 million dollars. The IHBG is the single 
largest source of capital for housing development, housing-related 
infrastructure, and home repair and maintenance in Indian Country. This 
funding level will not meet all tribal housing needs, but it will, at 
least, keep pace with the increased cost of housing construction, 
energy costs, and other inflationary factors occurring since 1997.
    I would like to bring to your attention the slow pace at which IHBG 
funding is provided. As I am sure you are aware, it often takes several 
months, after an Appropriations bill is signed into law, for HUD to 
make these funds available to NAHASDA recipients. In contrast, the 
American Recovery and Reinvestment Act of 2009 required HUD to allocate 
funds, by formula, within 30 days of this bill being signed. HUD 
complied with this requirement within weeks of enactment. If HUD can 
provide IHBG funds within 30 days for the passage for this bill, then 
the same should be said for annual spending bills. Timely allocation of 
these funds enables tribes to better plan their construction and save 
critical time and costs, especially in northern climates where seasons 
are shorter.
    Let me briefly address IHBG funding which is being set aside to 
satisfy litigation on tribal claims against HUD associated with formula 
current assisted stock. Funds for litigation and potential settlements 
should be derived from additional appropriations or another source and 
should not be withheld from the Indian Housing Block Grant. In 2008, 
HUD held back nearly $20 million for lawsuits that have yet to be 
resolved. This resulted in an across the board rescission that reduced 
funding for all recipients. These funds need to be returned to Indian 
Country. No other IHBG funding should be held back by HUD in future 
fiscal years related to formula current assisted stock litigation.

Training and Technical Assistance (T&TA)
    Increase NAIHC's T&TA funding to $4.8 million dollars. Tribal 
housing authorities rely on T&TA to effectively implement and improve 
their housing programs. For 35 years, the NAIHC has provided invaluable 
capacity-building services to tribes, their Indian housing authorities 
and TDHEs. These training and technical assistance services include on-
site technical assistance, tuition-free training classes, and 
scholarship programs that help offset the cost of attending NAHASDA-
specific training sessions, including NAIHC's Leadership Institute, a 
low cost professional certification course for Indian housing 
professionals. Decreased funding has required the NAIHC to reduce, and 
in some cases eliminate, much needed capacity building efforts on 
behalf of Indian housing authorities. By a unanimous vote at the 2008 
NAIHC Annual Membership meeting, a NAIHC resolution was passed to set 
aside IHBG funds for NAIHC's T&TA program.
    With funding restored last year, the NAIHC scholarship program to 
attend training courses was reinstated. NAIHC scheduled 35 training 
sessions in 2009 and will provide 400 limited training scholarships to 
IHBG recipients. We seek your continued support help to restore funding 
so that we might continue the important capacity building efforts on 
behalf of tribes and their housing programs.

Indian Community Development Block Grant (ICDBG)
    Fund the ICDBG at $100 million dollars. These funds are essential 
to tribes for housing and economic and community development efforts. 
Since 2001, ICDBG has built 160 community buildings in Indian Country 
but ICDBG funding has actually decreased 17 percent since Fiscal Year 
2004. We need these vital funds restored to continue to build viable 
communities.

Section 184 Indian Home Loan Guarantee
    Continue to fund the Section 184 Program at $9 million dollars. The 
Section 184 loan is a mortgage product, specifically geared towards 
Native Americans, to facilitate homeownership in Native American 
communities on their native lands and within an approved Indian area. 
Because of the unique status of Indian lands, these areas have been 
historically underserved by conventional lenders. The default rate for 
the Section 184 Program, notably, remains at less than 1 percent.

Title VI Tribal Housing Activities Loan Guarantee
    Continue to fund Title VI at the FY 2009 recommended $2 million 
dollars. The Title VI is designed to spur housing and other community 
development efforts, particularly if accompanied by an increase in IHBG 
funding that would serve as an adequate, consistent, and reliable 
source of income to secure the loan.

Native Hawaiian Housing
    Increase the Native Hawaiian Housing Block Grant to $20 million. 
Since May 2008, I am pleased to note that we represent Native people 
who reside on the native Hawaiian Home Lands. I am proud to welcome the 
Department of Hawaiian Home Lands as the newest members of National 
American Indian Housing Council. The funding for the native Hawaiian 
Housing Block Grant should be increased to address the significant 
needs for low-income and affordable housing on native Hawaiian Home 
Lands. The Section 184A Loan Guarantee Program should continue to be 
funded at the $1 million level.

Bureau of Indian Affairs Housing Improvement Program (HIP)
    Fund the Housing Improvement Program at $50 million. We know there 
is significant Congressional support for this much needed program. HIP 
grants serve the neediest of our communities; our elders and extremely 
low-income people. HIP provides for modest home acquisition, 
rehabilitation, renovation, and repair. As waiting lists for new homes 
grow and housing stock ages, this program helps to keep homes safe, 
healthy and habitable.

U.S. Department of Agriculture's Rural Housing Programs
    Restore and adequately fund USDA's primary housing loan programs, 
particularly the Section 502 direct home loan program, the Rural 
Community Development Initiative, and HUD's Rural Housing and Economic 
Development programs. Tribes rely upon these programs, and reduction in 
these programs will harm tribal housing development.

American Recovery and Reinvestment Act
    Just a few weeks ago, the American Recovery and Reinvestment Act of 
2009 was signed into law. Native American housing programs were 
included in a favorable way. Chairman, I want to thank you and this 
entire Committee for your support. This means a great deal to our 
Native American housing programs and will have a lasting impact on the 
communities we serve. We are working closely with HUD to implement our 
programs as Congress and the President intended: to quickly create jobs 
for American workers.

Bay Mills Indian Community
    In my own community, we plan to use our IHBG funding from the ARRA 
for energy efficiency and to upgrade tribal homes through a 
weatherization program that will reduce operational costs while 
improving the health of our housing residents. We've recently had every 
housing unit tested by the University of Illinois for heat leakage and 
we now have a complete inventory of which homes are in most immediate 
need. At this point, we do not have a figure for how many jobs this 
will create, but we do have commitments from our contractors and 
subcontractors to hire local tribal members who reside on our 
reservation, which is currently experiencing an unemployment rate of 
nearly 30 percent.

Conclusion
    Thank you, Chairman Dorgan, Vice-Chairman Barrasso, and members of 
this committee, for your invitation to share and discuss our Fiscal 
Year 2010 budgetary priorities for Native American housing needs. Your 
continued support of Native American communities is truly appreciated, 
and the National American Indian Housing Council is eager to work with 
you and your professional staff on any and all issues to improve Indian 
housing programs and living conditions for America's indigenous people.
Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. [Presiding] Thank you, Cheryl.
    I want to thank everybody for your testimony today.
    We definitely have our work cut out for us, and I certainly 
appreciate you folks here today to talk about the budget, which 
will give us the opportunity, I think, in the end to rally 
accomplish some good things in Indian Country. And you guys 
know all too well, whether it is health care or water or 
schools, or the list goes on and on and on. In fact, when I 
first got here a little over two years ago, I met with a group 
of tribal leaders and I said, okay, what are the issues? And 
after they listed them off, I said, and which took a 
considerable amount of time, I might add, I said, we need to 
prioritize. So I certainly appreciate you folks talking with 
expertise in your different areas.
    I have some questions and will just kind of go down the 
line. Let's kind of start with Jackie and move along.
    Last Congress, in the 110th, this Committee held eight 
hearings on law enforcement public safety concerns in Indian 
Country.
    There is a public safety crisis on many reservations. Part 
of the problem is a broken system, and soon Senator Dorgan will 
introduce a bill to address that system. But a big part of the 
problem is the lack of funding for the justice systems. Tribal 
justice systems are working literally on shoestring budgets, 
and there is a lack of uniformed officers, the crumbling jails, 
too underfunded tribal courts, and ultimately the ones who 
suffer are the victims of those crimes in Indian Country.
    Your testimony, Jackie, indicated that there needs to be an 
increase in funding for tribal courts. Can you provide some 
additional detail on the need for tribal court funding?
    Ms. Johnson-Pata. Sure. We look at the whole justice 
systems. In fact, we call them public safety intentionally 
because we know that without having, once again, a holistic 
viewpoint of addressing the system that, as we found in the 
past, we would put additional money into tribal cops and then 
we found out that our tribal courts and jails were overloaded, 
or we didn't have the capacity to address them, and so many 
times we had to let them, I don't want to say run free, but 
basically run free.
    So as we looked at this public safety, we are looking for 
this overall funding increase in all of those relevant areas.
    One of the problems that we really have, though, and a lot 
of attention in the last couple of years has been paid to 
getting more police officers, and now we are getting some 
attention to detention facilities and correctional facilities. 
But we also know that our court systems are severely lagging 
behind.
    And we see that without the resources to be able to deal, 
address things that even the Supreme Court has sometimes asked 
us to deal with, such as indigent defendants and 
representation, or facilities with being able to have the 
tribes being able to develop the ordinances and laws that are 
important for them, for the justices to be able to administer.
    So the tribal court system is not only the facilities, but 
also the other kinds of support to a tribal court system, to 
elevate the standing of our tribal law enforcement systems 
comparable to the other local governments and State systems so 
that we don't see that, we don't have news reports that 
continue to say Indian Country continues to be enclaves of 
lawlessness.
    Senator Tester. There is a great need for both juvenile 
delinquent prevention, juvenile delinquency prevention and 
facilities to help deal with those that are found delinquent. 
Your testimony also recommends funding for regional juvenile 
facilities. What feedback from the tribes have you received on 
that recommendation?
    Ms. Johnson-Pata. There are so many tribes that are ready 
to step up. In the Southwest, we have seen not only the Pueblos 
and the Hopis that have actually worked towards regional 
facilities, recognizing that there is not going to be the 
resources for every tribe to have their own facility, but the 
willingness of them to come together around those facilities.
    There is a hearing that hasn't happened soon, but there is 
a commission report having to deal with correctional 
facilities, and it is outside of Indian Country. And one of the 
challenges that they see about Indian Country, because the 
correctional facilities in their findings and investigations is 
that of the commingling of our offenders, and sometimes 
juveniles with adults, or women with men, other kinds of things 
that would create challenges.
    Now, we know in our lack of resources that there will be 
some, there may be some commingling of those facilities, but 
clearly with the right kind of barriers or the right kinds of 
oversight to be able to address those issues.
    But juveniles, unfortunately so many places in Indian 
Country, have to go far away from home, where they don't have 
the support base to be able to reenter back in their community 
because their community and their families haven't been able to 
move along with them. And so there is a great deal of support 
for not only juvenile facilities. In fact, in every meeting 
that we have had with Department of Justice that we have been 
doing a series of consultations for the last two years, every 
single meeting this issue comes up as one of the paramount 
issues with the tribes.
    Senator Tester. Well, along those lines then, I mean, how 
extensive has your conversation been with the Department of 
Justice?
    Ms. Johnson-Pata. We have had extensive conversations with 
Department of Justice, and actually we have brought in all the 
other Federal agencies that have anything to do with it, with 
HHS, with having to do with health care that is provided to 
those in the correctional facilities; at HUD, looking for ways 
of dealing with transitional housing and other ways of 
providing facilities; Department of Interior, with their 
responsibilities.
    Senator Tester. Maybe the better question would be, how 
open are they to your concerns?
    Ms. Johnson-Pata. Once again, it boils down to resources, 
and it is really at this point I have to say prior to this, and 
we haven't had the support that we needed for the resources. I 
think the economic stimulus was a good opportunity. We will 
see. The Byrne money and the other money for correctional 
facilities, the Department of Justice still has the ability to 
determine how those, what are the eligible activities, and we 
are not so patiently waiting to find out what those allocations 
may be for eligible activities.
    But that is a good example of where Congress can certainly 
help influence with the Department of Justice in their budget, 
but also making sure that report language is really clear what 
we are intending to do with it.
    Senator Tester. As we all know, we are facing economic 
difficulties right now. Unemployment just reached 8 percent 
nationwide. This is nothing new. Unemployment is nothing--oh, 
did you want to address the previous question, Robert?
    Mr. Cook. Yes, sir, if that is okay.
    Senator Tester. Go ahead. Yes.
    Mr. Cook. Yes, in the testimony that I provided, oral 
testimony, I talked about a term called the school to prison 
pipeline. And that is a real issue that we are finding in many 
parts of Indian Country where a lot of our students, who are 
placed in juvenile detention facilities for truancy, for many 
different issues. Those facilities often lack the resources. 
There is no teachers. They don't have the books, the supplies. 
And therefore some of those, the students are just written out 
as dropping out of school because once they are placed there, 
there is no seamless transition for them to come back into 
school.
    So you can imagine walking into a meeting or something and 
you don't know what is going on, that it is an ugly feeling 
that you have. And our students experience those things because 
they are behind, they are not, there is no chance for them to 
get back in and get caught back up. So a lot of those kids are 
slipping through the cracks and dropping out of school, which 
leads to further issues with problems that they may have.
    In many, in our community in Rapid City, South Dakota, they 
are forming a disproportionate minority contact committee and 
working with the juvenile correction folks and the schools, but 
there is a real, there is a real issue with that. So I think 
there needs to be some funding that has to go to those juvenile 
detention facilities to help the kids to be successful and to 
be on track when they go back into school, and we can't give up 
on those students.
    Senator Tester. Good point. That is a very good point.
    Okay, we will go back to the economy a little bit. 
Unemployment, high in this Country, incredibly high in Indian 
Country. In a lot of the Great Plains, Rocky Mountain region, 
in my home State, many of the reservations are seeing 
unemployment rates of 60 percent, 70 percent.
    Jackie, your testimony talked about a number of programs 
for economic development in Indian Country. If you were going 
to prioritize, which programs would you say are the most 
necessary and the most effective for creating jobs in Indian 
Country?
    Ms. Johnson-Pata. Well, of course, if I want to follow the 
mantra of economic recovery, shovel-ready jobs programs are the 
most important, which means a lot of programs for Indian 
Country. Infrastructure programs create jobs. I used to be in 
the housing field, too. We created the most jobs in housing and 
housing construction, because our own community members had the 
skill sets to be able to do those jobs.
    One of the things I see that is missing in the work that we 
are doing with the economic recovery, particularly for Indian 
Country, has to do with the work readiness skills. The 
education components are sorely missing. But also, other than 
the money that was directly set aside under the BIA where they 
get to make an allocation for work development programs, and 
there was no direct amount determined by Congress, but the 
department I know will be investing in that. There wasn't any 
money in the Department of Labor or any set aside for us having 
to deal with technical training and skills.
    So this opportunity that we have, I don't want us to miss 
this opportunity because we haven't been able to get our job 
training programs in place to take advantage of addressing 
unemployment. And that means unemployment, with having 
communities of care, a continuum of care having to deal with 
child care facilities; by tribal colleges and their ability to 
help with community education and provide some of those things, 
and preparing us for the workforce of tomorrow, which means 
having to address dealing with skill sets around alternative 
energy development and some of the fields, the technical fields 
that could be with energy development, which I think is going 
to be, for a lot of places, particularly in your area of the 
Country, are going to be important jobs of the future.
    Senator Tester. The workforce development issue, in and of 
itself, the funds have been inadequate in the past. Where would 
you flow them through? I mean, would you flow them through 
tribal colleges? How would you?
    Ms. Johnson-Pata. I would do a couple of things. One is, of 
course, we want the Department of Labor to take some 
responsibility. The only set-aside that I saw, and I am not an 
expert at looking at this, but the only set-aside I saw was for 
the older Americans under workforce development. I think that 
there should be some direct funding for tribes out of 
Department of Labor.
    But besides that, I think the 477 is a good model for 
tribes, but not all the tribes are using that yet because they 
need the resources. The 477 model for workforce development 
allows the tribes to be able to take dollars from HHS and BIA 
and others and merge it together so that they can have a single 
workforce development program that will cover multiple 
programs. I think it is a great model. It is one that I know we 
struggle with HHS having acceptable for, which I think we 
should take a look at.
    But it streamlines the programs locally, which makes a 
difference, and it is tribally-driven about what makes sense 
for the business of the future that the tribe is choosing to be 
in, whether it be in golf management, or whether it be in 
alternative energy. Tourism is a great opportunity for tribes 
that we need to take advantage of.
    Senator Tester. Okay. Thanks, Jackie. Thanks for your 
testimony.
    Jessica, we will talk about health care for a bit here, a 
huge issue in Indian Country up and down the line. Your written 
testimony mentioned a concern about the disregard for medical 
inflation in forming the Indian health care budget. And you 
also discuss Administration rescissions.
    Medical inflation, interestingly enough, is applied to all 
other Health and Human Service programs. So is the issue with 
IHS budget, and the lack of inflation being applied to that, 
does it stem from the Department of Interior? Or is there 
another reason for it?
    Ms. Burger. Thank you, Mr. Tester. I will try to answer 
that question as accurately as I can.
    I think it is partially created by the Office of Management 
and Budget. In the budget preparation process, there is no 
directive to look at medical inflation and its impact on the 
Indian Health Service budget. In the last two years, medical 
inflation in this Country has been at nearly 10 percent. So it 
has certainly had a negative influence on the level of need 
that the Indian Health Service has been funded for.
    I think the other part of the equation is that the Indian 
Health Service budget is discretionary, and that probably has 
less priority than the entitlement programs under Medicare and 
Medicaid dollars. So if we could at least get medical inflation 
as part of the equation during the budget formulation process, 
that would make it certainly accurately reflect the costs that 
we are incurring in Indian Country to provide care.
    Senator Tester. Okay. Has the National Indian Housing Board 
addressed the issue of rescissions to the Administration? And 
if you have, how have they responded?
    Ms. Burger. Yes, we have. And I think that the response has 
been somewhat tempered. Rescissions over the last couple of 
years that were put forth by the previous Administration kind 
of hit us on a two-fold front. It happened at the Indian Health 
Service level, and then at the Interior level.
    So what I would like to recommend is that we really do need 
some protective language that keeps the rescissions out of 
Indian Health Service delivery dollars, period. When we are 
talking about a 60 percent level of need funding, and then as 
you look at that nationally across the board, area to area, 
that level of need really drops off. I will just give you an 
example. My tribe is funded at just about 40 percent level of 
need for the population that I serve.
    I think the answer is help us get some language that 
protects that action from occurring to Indian Health Service 
dollars. And I think that the Administration, I know during the 
transition team discussions, they were very receptive to 
embracing that notion, so I would like to see that move 
forward.
    Senator Tester. All right. Prevention, it has been shown to 
be the most cost-effective effort in health care. Indian Health 
Service has a prevention task force initiative that is focused 
on health promotion and disease prevention efforts in all IHS 
and tribally controlled facilities.
    The work group recommends recommendations to identify 
progress in the IHS prevention programs. It is important to 
note that 22,000 Indians are living with cancer and 45 percent 
were not identified until late stages. The work group 
prioritized disease management ahead of prevention efforts in 
the recommendations, and you emphasized in your testimony the 
importance of fully funding the hospitals and clinics.
    Do you think prevention efforts deserve more funding and 
more attention?
    Ms. Burger. Oh, absolutely. When you look at the way that 
the Contract Health Service system that provides necessary 
dollars to purchase medical care is structured, the system is 
very flawed. We are paying for care at the most extraordinary 
levels of cost, life or limb situations.
    Most of the disease processes, and I am speaking from the 
health director's point of view, that we deal with, if we were 
able to redirect funding to health promotion and disease 
prevention, we would see a significant downturn in those rates 
of significant disease process, especially with regard to 
things like diabetes and cancer that by the time a cancerous 
patient is presented to an Indian Health Service clinic, they 
are in stage four. I mean, that is nationally. That is the most 
expensive care. And at that point, speaking as a registered 
nurse, the likelihood of a desirable outcome is not very 
likely.
    I would really like to see, if I could make a respectful 
recommendation, the Contract Health Service system needs a 
revamp to look at the priority system of payment for life and 
limb issues, to focus those dollars on health promotion, 
disease prevention first, and restructure that entire priority 
system.
    One of the largest costs that my tribe incurs is for 
maintenance medications for our elders, their pharmacy bills. 
We are spending almost $750,000 just in helping them retain the 
ability to take their blood pressure medications, their cardiac 
medications, their oral glycemics. But if you look at the 
priority system in CHS, that is a level 2(b) priority, 
maintenance medications that the rest of us in the population 
take for granted.
    I think, as a health director, if that Contract Health 
Service system were evaluated for effectiveness of preventive 
dollars compared to life and limb payments, I think that you 
would see the preventive dollars, the small amounts that are 
spent now on granted programs, have far more effect on the 
long-term health care status and improvement of health care 
status of Indian people than paying for those end-stage disease 
processes.
    Senator Tester. How would you currently rate the prevention 
efforts by IHS?
    Ms. Burger. I believe that that prevention initiative, in 
looking at it from a granted perspective, doesn't go far 
enough. The dollars are competitive in nature, it is not across 
the board funding, and I think that, again it goes back to 
Contract Health Services, if we looked at maybe a combination 
of health promotion and disease prevention dollars and Contract 
Health Service dollars that change that priority focus, that 
would be a real God-send to those of us providing care. If I 
had to rate it on a scale of one to ten, four.
    Senator Tester. That is not bad. It is better than I 
thought you were going to say.
    [Laughter.]
    Senator Tester. But I should say, no, it is, you folks know 
this, as I said in my opening, better than I ever will know, 
but Indian health care is a disaster right now, from my 
perspective. It is in dire need of some serious attention. I 
don't think the money we are spending is being spent in the 
right way, and I think it has been chronically under-funded.
    Thank you for your testimony and thank you for your 
questions.
    Ms. Burger. Thank you.
    Senator Tester. Robert?
    Mr. Cook. I would just like to say in my home community in 
Pine Ridge, during the winter time, the ambulances have to run 
24 hours a day because it is so cold if they shut them off, 
they may not start, which would be critical for people that 
need ambulance service. So just infrastructure facilities like 
buildings where we could store ambulances, just those basic 
needs are unmet in Indian Country. Thank you.
    Senator Tester. Yes, thank you.
    In education, I was encouraged in the President's recent 
speech on education that he emphasized the need to raise the 
quality of our early learning programs. I know the Head Start 
program is vital in Indian Country, with over 23,000 children 
participating in the program and more than 35,000 volunteers.
    In what way would you see funding being used to better 
serve the Indian children who participate in Head Start and 
Early Head Start?
    Mr. Cook. Well, both my wife's and my children are Indian 
Head Start school graduates. And as parents, we have seen 
first-hand how important these programs are, not only for our 
children, but for many children because they provide those 
services to help our kids have that transition into school and 
to kindergarten.
    On our reservation in Pine Ridge, our Lakota language is in 
a real critical situation where we are losing many of our 
language, our fluent language-speakers. Recently, there was a 
survey that showed out of 600 kids entering kindergarten, only 
six were able to speak conversational Lakota. So Oglala Lakota 
College was able to work with the Head Start program. They 
oversee our Head Start program on Pine Ridge. And they are 
implementing a Lakota language program within the Head Start, 
but yet they really struggle because they don't have a lot of 
the funding and the dollars that is critical for the success 
and the scope of that program.
    You look at many of our reservations, half the population 
of our people are under 25, so there is a tremendous need for 
programs in early childhood education, our Head Start program's 
funding.
    I wanted to just bring attention. I brought my eagle 
feather with me, and I received this feather when I graduated 
with my master's degree from Oglala Lakota College. Our tribal 
colleges are so important to us. But you know, a long time ago 
when you look in this room and you see these beautiful pictures 
that George Catlin documented of the Mandan people in the early 
1800s, our feathers for many of our tribes were given for 
supreme acts of bravery, where you put your life on the line 
for your people.
    Today, many of our communities give eagle feathers to our 
young people because they graduate from high school. That is a 
great honor, but yet it shows how hard it is today to do that, 
to step up, to stay in school when you have so many of these 
issues and problems that you have to overcome.
    So we give, we honor our kids and our students by giving 
them an eagle feather, and the young women, plumes with a 
medicine wheel. We have a real crisis with our dropout 
situation, and the National Indian Education Association 
partnered with the Campaign for High School Equity to partner 
with other civil rights organizations to address that issue.
    But it really goes back to the early childhood education, 
to be able to help funding and programs to help those parents 
and those young children to stay in school and to value their 
education so they can earn their eagle feather.
    Senator Tester. So the groups that you work with, you are 
saying that they had found that in Indian Country, that Early 
Head Start and Head Start, and the implementation of those 
programs, were critically important as far as increasing the 
graduation rate at the other end?
    Mr. Cook. Absolutely.
    Senator Tester. Okay.
    Currently, tribes are eligible for funding through three 
different agencies for education: the Bureau of Indian 
Education, the Department of Education, and Health and Human 
Services. Can you comment on the need for coordination among 
the agencies to help tribes effectively plan their educational 
programs?
    Mr. Cook. When you look back a long time ago, all of our 
education programs were coordinated through the Bureau of 
Indian Affairs. And now today, a lot of those, our programs are 
divided among the intergovernmental agencies, HHS and 
Department of Education.
    When I started teaching 20 years ago, you looked at the 
number of students that went to BIE schools or tribal schools, 
and the number of kids that went to public schools, it is so 
much higher today. Ninety-three percent of all our Indian 
students do go to public school.
    And so I think today we are really seeing a disconnect 
because those programs are contracted out between so many 
different agencies within those departments, and there is no 
collaboration or communication. I think that one of the things 
that NIEA has requested, along with NCAI and others, is we were 
asking for an elevation of the Director of Indian Education 
programs, that Department of Education, to an Assistant 
Secretary level.
    We are also asking for, within the Bureau of Indian Affairs 
and the DOE, to work together to place perhaps someone within 
the Department of Education that could be a liaison for tribal 
education programs. The Department of Education is the expert 
on education. They have a lot of resources, a lot of funding. 
The Bureau of Indian Education and BIA are expert on tribes. 
There has to be a connection with those departments. They have 
to work together.
    So we really believe that if we have somebody in there that 
could really advocate for our programs, not just the funding, 
but the resources. Teacher development is really important, 
being able to have our tribal colleges have graduate high 
school teachers. Seventy-five percent of our teachers on Pine 
Ridge are graduates from OLC, but in elementary education. Our 
tribes don't have the funding to produce secondary education 
teachers, so we have to go off to State schools, and it is real 
hard. Our of 9,000 teachers in South Dakota, less than 1 
percent are American Indian that serve in the public schools, 
but yet they service a lot of our Indian students.
    So I believe that there has to be more collaboration, more 
cooperation between those, and that is one of our highest 
priorities.
    Senator Tester. From your position, do you see any 
coordination right now?
    Mr. Cook. Well, I don't. I see that there is, just because 
of the high mobility of our students going from the reservation 
schools into the urban schools, when they are there for the 
count, it is important. But when they drop out or when they 
leave, there is a disconnect and it becomes an us versus them 
kind of territory. Well, they are not in our schools so they 
are no longer our problem anymore. So it leads to a lot of a 
lack of resources for our students. And so I think that is a 
really high priority, is the cooperation between those, 
especially those two.
    Senator Tester. Okay.
    As has been suggested already, Indian students have a 
graduation rate that could be a lot better. Let's just put it 
that way. There are many reasons for this. Some we have already 
talked about. Another one that I think contributes to it is 
that the schools that American Indian students are forced to 
attend, well, they need some repair.
    We really can't expect our students to go to an unhealthy 
environment or an unsafe environment, as far as that goes. We 
are expecting a GAO report to be released later this year that 
will highlight some of the conditions in school facilities in 
Indian Country.
    What do you think needs to be done to improve the backlog 
at BIE for school construction, repair and improvements, as 
well as the backlog in construction for public schools in 
Indian reservations that rely on Impact Aid?
    Mr. Cook. Thank you, Senator, for that question.
    I spent 14 years in my teaching career working in the BIE 
schools at Crow Creek, Lower Brule, Little Wound. We were 
really excited when we were able to get Indian school 
construction on to the Recovery Act, and be able to address 
some of the backlog needs facing our schools.
    Although we were disappointed that Impact Aid schools, we 
have a lot of Impact Aid schools on our reservations, for 
example, Todd County School District in Pine Ridge, Shannon 
County School District, I mean, and then Todd County in 
Rosebud, are examples of schools that are Impact Aid schools 
that weren't able to address their construction needs because 
of that, because they are public schools, but they are on our 
tribal reservations.
    I think one of the things that needs to be done is there 
has to be a transparency with the Bureau of Indian Affairs and 
BIE to be more transparent. There is a list of schools that are 
on this priority list for construction, but nobody knows, the 
schools themselves don't know where they are as far as being on 
that list. If there was transparency and communication, if that 
list was made public, then those schools would be more ready. 
They would be more shovel-ready to get going on their 
construction needs.
    And that is what we are asking for from the Bureau is to 
make sure that list is available so the tribes know where they 
stand as far as their construction needs. Some of these schools 
are, most average 60 years old.
    Senator Tester. Who has the list? BIA or BIE or who?
    Mr. Cook. The BIA.
    Senator Tester. BIE?
    Mr. Cook. BIE.
    Senator Tester. BIE has the list. Have you made a request 
for it?
    Mr. Cook. Yes, sir.
    Senator Tester. And you have been turned down, or just not 
respond?
    Mr. Cook. Yes, and it changes all the time. A school maybe 
10 years ago could be number two on the list, and 10 years 
later, they could be 25. There is a shuffling of the list.
    Senator Tester. But you never know that, do you?
    Mr. Cook. You never know that.
    Senator Tester. That might be interesting to follow up on.
    Mr. Cook. Thank you.
    Senator Tester. Thank you very much for your testimony and 
the answers to the questions.
    We will go to housing. Cheryl, Indian housing needs, it 
would probably be a compliment if I said it was astronomical. 
It is absolutely, we have some difficulty: overcrowded 
situations, sometimes 10 to 20 people living in a three-bedroom 
home.
    To address this need, Congress has provided a significant 
amount of money through the Indian Block Grant program in both 
the American Recovery Act last February and the Fiscal Year 
2009 spending bill that we just recently passed.
    Can you tell the Committee what the National Housing 
Council is doing to ensure that these funds will get out to 
needy families in a timely manner?
    Ms. Parish. The first thing we did, actually, is meet with 
several of the people in this room. I went and saw them about 
two weeks ago, and I asked: How do we do this? And how do we do 
this correctly?
    Senator Tester. Yes.
    Ms. Parish. The whole tribal, well, the whole tribal, the 
whole NAIHC board of directors did that, and we canvassed the 
Hill. We have been working with HUD. Heidi was actually with us 
during our meeting with Mr. Boyd. We urged him to please, 
please help us do this, give us some heads up so we do it 
right.
    We want to spend this money. This is, it is not enough. 
Like you said, it is a drop in the bucket, but we would like to 
be able to show you our true need, that we can spend it, we can 
spend it well. We will spend it fast, and please give us more 
if you hand out any. That is the message that we are going to 
come out with, and we are going to come out with hard.
    The money that NAIHC receives, its technical assistance and 
its training, will be invaluable. We also try to work with Mr. 
Boyd and the rest of HUD as much as we can to make sure that 
all of our housing authorities receive the proper training we 
need. Right now, the first thing I did is I went home and I 
called my regional office, and I said, we have to have a 
meeting and we have to have all the housing authorities that I 
represent, 31 of them, come together, and we are doing it next 
week, so you can tell us how we are going to report on this 
money, so we do it, so it is transparent, and we don't get into 
any trouble.
    That would be basically be my answer there.
    Senator Tester. Okay. Have you done, have you thought about 
or are you doing anything in regards to utilizing those funds 
to stimulate jobs for Indian people in Indian Country?
    Ms. Parish. Yes, very much so. Actually, when we even got 
the whiff that we might possibly get that money, and it was a 
tremendous gift to us, we started preparing throughout Indian 
Country. And when I put out things for a request for proposal 
or for bid, I tell them, you are going to get a higher 
priority, but you are going to hire some of my people and you 
are going to employ them.
    I have done that in the past when I do projects. You have 
to hire this many, and I want them to be carpenters at the end. 
And that actually gives them a trade-set. Sometimes it takes 
them off the reservation, but it will give them a job and it 
will give them a talent.
    Senator Tester. That is good. And maybe we can even go back 
to Jackie's point on job training and try to get them to be a 
carpenter going in, too. That would be good.
    Ms. Parish. Yes.
    Senator Tester. I want to ask you, all four, and thank you 
very much, Cheryl. I want to ask you all four more of a global 
question, actually a couple of them.
    We continually hear, and it just isn't in Indian Country, 
it is throughout many of the agencies, that the funds that are 
being appropriated by Congress somehow are not making it to the 
community level. Could you share your perspective on that, if 
you think that there is a problem there? Or do you think it is 
okay?
    Jackie?
    Ms. Johnson-Pata. I would like to go ahead and start, if 
that is all right.
    We work really hard to provide technical support to a 
couple of Federal agencies around budget development and 
provide technical support to the tribe, BIA tribal leaders, 
TBAC is what it is called. And that challenge comes up on a 
regular basis.
    And I think part of that is, the tribes come up with their 
priorities and then they get to the negotiations with OMB and 
then the department continues to have their negotiations, and 
the budget never really looks like we thought it did from the 
very beginning.
    I think we have done better about, as tribal leaders, being 
able to show where our budget priorities are and try to get 
those increases in those priorities. But then it comes back to 
any reallocation of funds, or as you heard, where they hold 
back funds for HUD, those kinds of things. Any reallocation, it 
makes it very difficult for tribes to plan when they are not 
sure exactly what they are going to be getting.
    And we have been trying to work with ways with the 
Department of Interior for tribal leaders to be involved with 
any recapture or reallocation from one region to another, or 
re-shifting of funds. And I think that is where a lot of the 
money becomes more discretionary, for some reason, and there 
seems to be more flexibility at the department and less goes to 
the tribes.
    I think the other thing that is frustrating as the tribes 
meet on these issues is that when we deal with what we were 
talking about, cost of living increase and inflationary 
factors, they are mandatory off the top for the department and 
the department staff, so they become mandatory expenses out of 
the allocation that is the amount that is appropriated for 
Indian Country.
    But we don't get the same treatment because we don't get 
mandatory cost of living increases or personnel requirements. 
And so what ends up happening is that the Federal Government is 
able to maintain their staffing levels because they get those 
cost of living factors mandatorily considered, but when the 
money is left to go to the tribes, the tribes have to decide 
how many members of their team that they are going to have to 
release from employment because they don't also have the same 
ability. So all of those are factors.
    I also want to bring up something that when we were talking 
about the school construction, and this would go for a number 
of other pieces here. But one of the things that we at the TBAC 
have asked for school construction from Jack Weaver, the list 
for a while, and have not been able, for years, I have to say, 
years, because OMB measures the success. OMB kept saying, well, 
the rule, one of the reasons they weren't putting more money 
for school construction is because we haven't spent out that 
school construction dollars.
    We said, give us the list, let us look at that from the 
tribal perspective, and decide to see what the problem is. Is 
this an issue with land title, and that is why we aren't able 
to construct the building? Or are there other issues that we 
can address as tribal leaders? Without having that information, 
we as tribal leaders can't help find the solution.
    An example of what I think would be a good model is the 
State of Virginia. When they are doing a construction project 
or roads project, they have it right on their website. This is 
the projects that we are doing. And if there is a hold on a 
project, they put a yellow sign that says, this has been 
temporarily halted for this reason, or, this project has been 
stopped for this reason.
    So we all know, in talking about the transparency, so we 
all know, because I think that is the other thing that holds 
back money from Indian Country. It gets obligated, 
appropriated, but then there are these other reasons that we 
are not aware of that it doesn't come back to our home 
communities.
    Senator Tester. I have a follow-up on that, but I will let 
these others talk about, if they have anything they would like 
to say about the money getting to the ground, and if there is 
problems in that, and you think they are serious enough to 
comment on them.
    Ms. Burger. Thank you, Senator. I think I would like to 
make just a brief comment.
    One of the issues is sometimes the formula for the way that 
the appropriation is coming through does not fit the formula 
that is required in Indian Country. It is pretty simple. If we 
are allowed to be on the ground floor through a consultation 
process to frame some of those program requirements and frame 
up those priorities from the beginning, I think that you would 
see a far better utilization of the resources.
    One of the other things that comes to mind just in 
discussing facilities dollars,there is a 25-year waiting list 
on facilities dollars for new construction. My tribe purchased 
our own tribal health clinic because there was no way we were 
ever going to get on that list.
    So we have to wonder where the disconnect occurs, and I 
think that the disconnect really occurs sometimes at the Office 
of Management and Budget. We need some individuals in that 
office that understand Indian issues, that can listen as we 
articulate our problems and make some sense of why perhaps a 
program doesn't work. And I think that would be a good place to 
start.
    Senator Tester. From your perspective, OMB does not have 
that now?
    Ms. Burger. No, they don't.
    Senator Tester. Good.
    Would anybody else like to comment on that, on the money 
that is getting to the ground, if it is a problem? You don't 
have to if you don't want to.
    Mr. Cook. Yes, I would. Thank you.
    Senator Tester. Sure.
    Mr. Cook. I just also wanted to mention, when you were 
talking about the construction list for schools. IHS has a real 
good model. They call it the five-year plan and it lets people 
know what facilities are going to be built within the next 
coming years. Maybe that might be a good way to, or a good 
start to look at.
    Senator Tester. Good point.
    Mr. Cook. One of the things that NIEA has requested to the 
new Administration and to our colleagues is to establish a 
Native American budget, a Native American Budget Task Force, to 
be able to look at HHS, DOE, Department of Education. Who 
better knows the needs of funding and issues than our own 
people, being able to put together their plans and 
recommendations to the different agencies?
    Currently, there is no coordination among these agencies, 
as we discussed, on education funding. And so especially within 
the Department of Education, where 93 percent of our Indian 
kids do go to public schools, there is no tribal input 
whatsoever.
    The San Carlos Apache Tribe met with the Department of 
Education Office of Indian Education. And when they asked them 
different questions on budgets and funding and programs, they 
had no information to give the tribe on the stimulus, the 
recovery funding. So I think there needs to be somebody in 
there within that department to help them to understand what 
the needs are in Indian Country as far as academic success for 
our students and for our schools.
    Thank you.
    Senator Tester. Cheryl?
    Ms. Parish. Thank you.
    Our problem seems to lie a lot with HUD and OMB. Unlike the 
money that we just received, and we got it within 30 days, 
which was just a shock to Indian Country as far as housing 
went. It is four and five months from the time there is an 
appropriation until we see the money. The littler tribes are 
barely making it at that point, and we have to help the lowest 
of income with that small bit of funds as it is.
    If there was a way that you could help us perhaps work with 
OMB and HUD to get our money within 30 to 60 days after it was 
appropriated, it would help us tremendously. By the time we get 
it, it is October or November, and where I live, I can't build 
until May now. So I am a year behind schedule, right off the 
get-go. So that is where I would look to this Committee if you 
could possibly help us there.
    Senator Tester. Okay.
    Robert may have answered my question I was going to ask 
you, Jackie, as far as prioritization. I mean, I am sure this 
list is a national list, right, of schools?
    Ms. Johnson-Pata. Yes.
    Senator Tester. And you have a lot of sovereign nations 
here, and seeing the appropriation process work at this level, 
how would you stop, just because in some of the schools I have 
seen, they all have merit to be rebuilt at some level.
    Ms. Johnson-Pata. That is a problem. When there is limited 
resources is everybody is scrambling to be able to want members 
of Congress to deliver for their constituents, but also, tribes 
who are just desperately needing that. And I know we tried, 
like in, for example, in the development of NAHASDA initially, 
was to de-politicize the formula so that it really was based 
upon a need allocation.
    Senator Tester. Yes.
    Ms. Johnson-Pata. I think that there are some worthy 
conversations that could be had about the distribution models 
of IHS. I see Staci shaking her head. That might be helpful for 
the future.
    But I want to follow up on the OMB issue, because OMB is 
critical at this point. And we have identified that that is a 
place for us to have to make some changes as far as 
responsiveness and understanding the uniqueness about tribal 
delivery systems.
    NCAI put forward a recommendation that is supported by all 
these organizations here, that we think that there needs to be 
a person designated at OMB that will shepherd the tribal 
outreach or the tribal review. We proposed it to the transition 
team and to the White House. I think that we seem to be getting 
some traction on the idea. We were hoping for a new person that 
would be like a deputy underneath the director, but that may 
not be possible. However, I think that they are seeing a need 
to have an Indian team within the OMB that has a greater 
understanding.
    And one of the reasons that came about was because of the 
self-governance compacts and contracts on economic recovery, 
the fact that those contracts don't necessarily mesh with the 
requirement that Congress put forward. So it is an opportunity. 
You guys could help us with that a little bit, too, to push 
this agenda forward as far as the uniqueness of Indian Country, 
and get OMB to have an Indian person.
    Senator Tester. I personally think it would be smart. I 
think it would be smart for everybody.
    Yes, Robert?
    Mr. Cook. Earlier you mentioned about examples or the need 
for the full funding to get to the schools. I have three real 
quick examples. Wounded Knee School District, for example, 
along with many others, only gets 43 percent of the total 
dollars that is supposed to be allocated. When I talked to the 
superintendent from the school, she said, imagine having a $100 
light bill and only having $43 to pay it.
    Senator Tester. So where did the other $57 go?
    Mr. Cook. They are only operating on 43 percent of the 
promised budget.
    Senator Tester. Okay. So the money may be appropriated, but 
it is only at a 43 percent level.
    Mr. Cook. Right. Exactly.
    Senator Tester. Well, that is a different concern. Okay.
    Mr. Cook. Another example is when we had the high gas 
prices, Little Wound School, with their tremendous number of 
students that bus into the facilities, they actually had to tap 
into their ISEP funds, $168,000 just to offset the cost of the 
rising fuel costs and transportation of students. So that 
directly affects the academic needs of those students because 
they have no emergency funds, nothing to draw money from in 
case something does come up, for example, those high costs of 
fuel.
    Another example is when a new school is built, for example, 
Porcupine School on Pine Ridge just recently built a new 
school. However, they are really concerned because there is no 
maintenance dollars. And so they have this beautiful school, 
but a concern is how do they keep that school beautiful for the 
next 20 years.
    Senator Tester. Yes, O&M, a big, big issue.
    Well, once again I want to thank you all for being here, 
Whether you are talking about the myriad of issues, of 
challenges, the good part about this is, we are early in the 
process, so we will be continuing to gather information. The 
difficult part about this process is your issues are difficult. 
They are real, and they are extensive.
    So I want to thank you all for being here. I appreciate it, 
and have a great day, and we look forward to continuing the 
contact. Thank you.
    We are adjourned.
    Ms. Johnson-Pata. And Senator, if I could, I just want to 
invite you or any of your staff or any of the other staff here. 
NCAI is hosting a trip to Indian Country during the spring 
break to Tohono O'odham. We are going to deal with border 
issues, but all the other issues, too.
    Senator Tester. That is good.
    Ms. Johnson-Pata. So a good learning education time.
    Senator Tester. Thank you for the invite. Thank you.
    We are adjourned.
    [Whereupon, at 1:58 p.m., the Committee was adjourned.]


                            A P P E N D I X

                Prepared Statement of the Navajo Nation


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of the United Tribes Technical College

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
